r
CERTIFICATE OF SERVICE
No. TBD
Mona Mustafa
Petitioner,
v.
Illinois Human Rights Commission Et al.; Illinois Department of Human Rights Et al.;
NSI International Inc. Et al.; Milman Labuda Law Group, PLLC
Respondents.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Mona
Mustafa Petition for Writ of Certiorari, by mailing one (1) true and correct copy of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Joseph M. Labuda
Milman Labuda Law Group, PLLC
3000 Marcus Ave,
Suite 3W8
North New Hyde Park, NY 11042
(516) 328-8999
Counsel for NSI International et al and
Milman Labuda Law Group, PLLC

Kwame Raoul
Illinois Attorney General
100 W. Randolph Street
Chicago, IL
(312)814-3000
Counsel for Illinois Human Rights Commission and
Illinois Department of Human Rights

Jeffrey B. Wall
Solicitor General of the United States
Room 5614, U.S. Department of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
(202)514-2203
supremeetbriefs@usdoj .gov
Counsel for EEOC

Chan
December 28, 2020

SCP Tracking: Mustafa-2208 Countryside Lane-Cover White

